TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Confirmation of Tax Noncompliance Issues
                    Among Low Income Taxpayer Clinics



                                      September 18, 2006

                              Reference Number: 2006-10-093




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.
 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                  Background

In September 2005, the Treasury Inspector General for Tax Administration issued an
audit report entitled Progress Has Been Made but Further Improvements Are Needed in
the Administration of the Low Income Taxpayer Clinic Grant Program (Reference
Number 2005-10-129).
The National Taxpayer Advocate’s (NTA) August 26, 2005, response to the report
identified corrective actions. Two comments in the response raised concerns, so we
initiated a limited review to determine whether there was sufficient support for the two
statements and whether the related recommendations from the September 2005 audit
report were still valid. The results of our review were reported in the attached
May 10, 2006, memorandum to the NTA.
Subsequent to the issuance of our May 2006 memorandum, the NTA clarified the basis
for the statement in her response to the prior audit report concerning the reasons for tax
noncompliance by eight clinics. The NTA has recently emphasized to us that she was not
disputing the accuracy of our assessment, but rather she agrees with our assessment of the
noncompliance by the Low Income Tax Clinics (LITC) in February 2005, when the audit
work was conducted. The NTA advised us that, during the prior audit, after we had
notified the NTA of the tax noncompliance by certain clinics in July 2005, the LITC
Program Office staff began contacting the clinics we had identified to resolve the
noncompliance issues. These contacts occurred in August 2005. In the course of these
contacts, the LITC Program Office also identified new noncompliance issues, some of
which were due to Internal Revenue Service or taxpayer error, and some of the penalties
identified were subsequently abated.
In her August 26, 2005, response to the prior audit report, the NTA had provided an
update concerning the tax compliance status of the clinics we had identified. The NTA
has since clarified that, when she stated in the August 2005 response that the majority of
tax noncompliance issues related to either account errors on the part of the Internal
Revenue Service or to penalties for which abatement requests were pending, she was
referring to the compliance status of the clinics as of the date of her response, which was
after some of the clinics had been brought into compliance and included the new
noncompliance issues identified after our fieldwork had been completed.
Based on this clarification, we believe the concerns reported in the attached
memorandum have been resolved.
                                       DEPARTMENT OF THE TREASURY
                                          WASHINGTON, D.C. 20220




INSPECTOR GENERAL
      for TAX
  ADMINISTRATION




                                              May 10, 2006




       MEMORANDUM FOR NATIONAL TAXPAYER ADVOCATE

       FROM:                    Michael R. Phillips
                                Deputy Inspector General for Audit

       SUBJECT:                 Follow up to the Final Audit Report entitled, Progress Has Been
                                Made but Further Improvements Are Needed in the
                                Administration of the Low Income Taxpayer Clinic Grant Program
                                (Audit # 200510009, Report Reference # 2005-10-129, dated
                                September 2005))


       In response to the finding, “Some Clinics are not in Compliance with their Federal Tax
       Responsibilities” in the subject audit report, you raised the following two points in
       response to Recommendations 9 and 10, respectively:
            •   Disclosure laws may preclude your staff from discussing tax compliance with
                clinic personnel when the clinic is a subcomponent of a larger organization.
            •   The majority of the tax compliance that we identified was due to errors made by
                the Internal Revenue Service (IRS) or penalties for which abatement requests
                were pending.
       We requested the Taxpayer Advocate Service (TAS) provide support for these two
       issues so we could review them in greater detail. The results of our follow up efforts are
       discussed below.
       With respect to your first point, we are satisfied from our follow up that the TAS, working
       with Counsel, developed and implemented formal procedures so unauthorized
       disclosure of tax return information does not occur if the TAS needs to contact clinic
       personnel regarding Federal tax noncompliance. The TAS developed a form, similar to
       a power of attorney form, which allows the larger organization to authorize clinic
       personnel to discuss the tax compliance issues of the larger organization with the TAS.
                                           3

cc: Commissioner C
    Office of the Commissioner – Attn: Chief of Staff C
    Chief Counsel CC
    Deputy, National Taxpayer Advocate TA
    Director, Office of Legislative Affairs CL:LA
    Director, Office of Program Evaluation and Risk Analysis RAS:O
    Office of Management Controls OS:CFO:AR:M
    Audit Liaison: National Taxpayer Advocate TA
